VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                            Audit of 

                                                                      Veterans Retraining 

                                                                      Assistance Program 





                                                                                     September 17, 2013
                                                                                      12-04524-321
             ACRONYMS AND ABBREVIATIONS 


IVR          Interactive Voice Response
OIG          Office of Inspector General
RPO          Regional Processing Office
VA           Veterans Affairs
VA-ONCE      VA ONline Certification of Enrollment
VBA          Veterans Benefits Administration
VRAP         Veterans Retraining Assistance Program
WAVE         Web Automated Verification of Enrollment




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                            Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Audit of VBA’s
                  Veterans Retraining Assistance
                  Program
Why We Did This Audit                           describing the penalty for false certifications
                                                and it should not have approved one of the
In November 2011, Congress passed the           schools that did not have appropriate
Veterans Opportunity to Work to Hire            procedures as a training institution.
Heroes Act authorizing the Veterans
Retraining Assistance Program (VRAP).           We projected that VBA paid about
VRAP offers training assistance to              $12 million to just over 2,300 veterans who
unemployed veterans who are not eligible        were not complying with VRAP attendance
for any other VA education benefits             requirements. Without increased oversight
program.       The program expires in           and controls, VBA risks providing further
March 2014.       Our objective was to          inappropriate payments to veterans who do
determine whether the Veterans Benefits         not meet full-time attendance requirements.
Administration      (VBA)      effectively
administered VRAP to maximize veterans’         What We Recommended
use of the program.
                                                We recommended the Under Secretary for
What We Found                                   Benefits reinforce to schools they must
                                                monitor veterans’ progress and accurately
Early in our audit, we issued an interim        report enrollments, clarify and establish
report stating that VRAP would not achieve      procedures to manage VRAP, and warn
the participant levels authorized by            veterans of the penalty for incorrect
Congress. The Under Secretary for Benefits      certifications.     If extended beyond
agreed with our recommendations to accept       March 2014, VBA should consider stronger
applications until VBA reached the program      controls to ensure the long-term integrity of
limit for veterans enrolled in approved         the program.
training or until October 1, 2013, the last
date a veteran may apply for program            Agency Comments
benefits.
                                                The Under Secretary for Benefits concurred
This report details the conditions identified   with our recommendations and provided
since issuing the interim report.         We    plans for corrective actions. We consider
projected about 2,700 (15 percent) of           the actions acceptable and will follow up on
18,500 enrolled veterans did not comply         their implementation.
with the program’s full-time attendance
requirements, and over 1,800 of the
2,700 veterans inaccurately certified their
status as full-time students. Some school
officials did not adequately monitor
veterans’ academic progress or accurately                 LINDA A. HALLIDAY
report enrollment information. Also, VBA               Assistant Inspector General
did not have sufficient warnings in place              for Audits and Evaluations


                                                                                              i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                VBA’s Oversight of VRAP Needs Improvement ...............................................2
 

                           Recommendations ...............................................................................................7
 

Appendix A                 Background .........................................................................................................8 


Appendix B                 Scope and Methodology......................................................................................9
 

Appendix C                 Statistical Sampling Methodology ....................................................................11 


Appendix D                 Potential Monetary Benefits in Accordance With Inspector General Act 

                           Amendments .....................................................................................................14 


Appendix E                 Under Secretary for Benefits Comments ..........................................................15 


Appendix F                 Executive Summary of Interim Report .............................................................18 


Appendix G                 Office of Inspector General Contact and Staff Acknowledgments ...................19 


Appendix H                 Report Distribution............................................................................................20 





                                                                                                                                                 ii
                                                                               Audit of VBA’s VRAP



                    INTRODUCTION
Objective           The VA Office of Inspector General (OIG) performed this audit to determine
                    if the Veterans Benefits Administration (VBA) effectively administered the
                    Veterans Retraining Assistance Program (VRAP) to maximize veterans’ use
                    of the program.

Veterans            VRAP participants must enroll in a VA-approved program of education
Retraining          offered by a community college or technical school. The program must lead
Assistance
Program
                    to an associate degree, non-college degree, or a certificate, and train veterans
                    for a high-demand occupation as determined by the Department of Labor.
                    These veterans must attend full-time and may receive up to 12 months of
                    financial assistance, which is $1,564 monthly for FY 2013.

Interim Report      Early in our audit of VRAP, we issued an interim report for VBA’s
                    immediate action to ensure VBA maximized veterans’ use of this
                    time-sensitive program. We reported that if VBA continued using its current
                    method of counting authorized participants, veterans’ use of VRAP would
                    not achieve the levels authorized by Congress. In November 2011, Congress
                    authorized VRAP benefits for 45,000 participants during FY 2012, and
                    54,000 participants from October 1, 2012, through March 31, 2014. To
                    ensure VBA did not exceed the authorized limit of 99,000 participants, VBA
                    counted approved applicants as participants. However, not all approved
                    applicants were actually participating in the program.                As of
                    February 15, 2013, about 33,000 (33 percent) of the 99,000 authorized
                    participants were enrolled in an approved training program and receiving
                    program benefits. We recommended VBA continue to accept applications
                    until they reach the program limit for veterans enrolled in an approved
                    training program, or until October 1, 2013, the last date a veteran may apply
                    for program benefits. We made three other recommendations related to
                    ensuring veterans take full advantage of VRAP in our Veterans Benefits
                    Administration – Interim Report – Participation in the Veterans Retraining
                    Assistance Program (April 15, 2013, Report Number 12-04524-171), which
                    is available on the OIG Web page: http://www.va.gov/oig/pubs/VAOIG-12-
                    04524-171.pdf.

Other Information   The following appendices provide additional information:

                       Appendix A provides pertinent background information.
                       Appendix B provides details on our scope and methodology.
                       Appendix C provides details on the statistical sampling methodology.




VA Office of Inspector General                                                                    1
                                                                                Audit of VBA’s VRAP



                    RESULTS AND RECOMMENDATIONS
Finding             VBA’s Oversight of VRAP Needs Improvement

                    We estimated over 2,700 (15 percent) of the approximately 18,500 veterans
                    enrolled in VRAP as of November 27, 2012, did not meet the program’s
                    full-time attendance requirements. In addition, we estimated that over
                    1,800 of those 2,700 enrolled veterans inaccurately certified their status as
                    full-time students and received inappropriate monthly benefit payments.
                    This occurred because some school officials were not adequately monitoring
                    academic progress and reporting full-time student status changes timely or
                    accurately.

                    We also identified one school that VBA should not have approved for any
                    GI Bill benefits, including VRAP. Only one veteran from our sample was
                    enrolled at this school. However, we conducted a site visit and school
                    attendance records showed an additional 55 veterans were enrolled and
                    receiving VRAP benefits at this school. A VBA Education Liaison
                    Representative approved the school without ensuring the school had
                    adequate procedures detailing academic standards and attendance policies.

                    We estimated VBA paid approximately $5 million to $19 million with a
                    mid-point estimate of $12 million to just over 2,300 of the 2,700 veterans
                    who did not meet VRAP full-time attendance requirements. The remaining
                    veterans did not incur payment errors. Without increased oversight and
                    additional controls, VBA risks providing further inappropriate benefit
                    payments to veterans who do not meet full-time attendance requirements.

Veterans Not        As of November 27, 2012, VBA reported it approved about 65,000 veterans
Meeting             for VRAP and approximately 18,500 of these veterans enrolled in training.
Program
Requirements
                    Table 1 summarizes the oversight errors identified at the four Regional
                    Processing Offices (RPOs) selected for review.

Table 1
                          Summary of School Oversight and Veteran Certification Errors
                        Regional
                                      School Official   Veteran Certification
                       Processing                                                  Sample Size
                                        Oversight          of Attendance
                         Office
                      Atlanta, GA            6                   5                     35
                      Buffalo, NY            5                   4                     33
                      Muskogee, OK           9                   7                     52
                      St. Louis, MO          3                   1                     34
                       Total                23                  17                    154
                      Source: OIG analysis of VRAP veterans enrolled as full-time students


VA Office of Inspector General                                                                   2
                                                                                 Audit of VBA’s VRAP


School              We estimated over 2,700 (15 percent) of the approximately 18,500 veterans
Officials Not       enrolled in VRAP as of November 27, 2012, did not meet the program’s
Providing
Adequate
                    full-time attendance requirements. This occurred because schools did not
Oversight           effectively monitor academic progress and report full-time student status
                    changes.

Inadequate          Some school officials did not identify those veterans who reduced their
Monitoring of       enrollment to less than full-time. This occurred because some school
Academic
Progress
                    officials were not monitoring veterans’ attendance or grades in order to
                    report enrollment status changes. Schools approved to participate in VRAP
                    are required to report veterans’ enrollment status changes to VBA within
                    30 days of veterans interrupting, terminating, or reducing their credit hours.
                    Effective monitoring and reporting is needed to provide VBA with
                    information supporting whether the veteran is a full-time student and is
                    entitled to monthly benefit payments. The following two examples illustrate
                    the inadequate school monitoring of VRAP participants’ academic progress.

Example 1                A veteran enrolled as a full-time student (13 hours) for the class
                         term from September to December 2012. However, the veteran’s
                         transcript showed he withdrew from all classes in September 2012.
                         Until we requested this information from the school, the official was
                         unaware the veteran withdrew from classes. VBA paid the veteran
                         approximately $8,000 over 5 months even though he had dropped all
                         of his classes and was no longer enrolled.
Example 2                We requested the certifying official at another school provide
                         attendance records or the last date of attendance for a veteran who
                         received failing grades for three classes. The official told us their
                         instructors did not take attendance, and the school’s practice was to
                         require a signed statement from the veteran as to the last date the
                         veteran attended. This school later provided documentation from
                         the instructor that the veteran’s last date of attendance in one class
                         was October 10, 2012, which reduced the veteran’s enrollment
                         status to less than full-time after that date. VBA paid the veteran just
                         under $3,650 for over 2 months even though he was not attending
                         full-time.

                    While VA’s School Certifying Official Handbook allows obtaining a signed
                    statement from a veteran, the signed statement option is listed after four other
                    more objective means of verification. It is our opinion a veteran’s signed
                    statement should not be used as the only means of verifying attendance. The
                    other means of attendance verification are:
                        Attendance records

                        Grading reports

                        Last day on which exam or other papers were filed 

                        Last day of activity in instructor records 


VA Office of Inspector General                                                                      3
                                                                                Audit of VBA’s VRAP


                    VBA needs to reinforce to all schools that participate in VRAP they must
                    monitor veterans’ grades for satisfactory progress and report changes of
                    enrollment within 30 days. In addition, VBA should revise the School
                    Certifying Official Handbook to state a veteran’s signed statement should not
                    be used as the only means of verifying attendance.

Inaccurate          Some school officials reported veterans’ full-time student status inaccurately.
Reporting of        While other VA education benefits have different options, VRAP
Full-Time
Student Status
                    participants must attend as a full-time student. If a school term is different
                    from a standard quarter or semester, school officials must report actual class
                    terms and hours in the VA ONline Certification of Enrollment (VA-ONCE)
                    system. This allows VBA to know whether the veteran is a full-time student
                    and supports entitlement to monthly benefit payments. Some school officials
                    did not always fully understand this and reported inaccurate student status
                    information. The following is an illustration of a school inaccurately
                    reporting a veteran as a full-time student.

Example 3               One school’s official reported a veteran as a full-time student taking
                        13.5 credit hours of courses for the entire semester term of
                        September 26 through December 15, 2012. The veteran’s transcript
                        showed he was enrolled in 9 credit hours from September 26 through
                        December 15 and an additional 4.5 credit hours from
                        November 5 through December 15, 2012. According to VRAP
                        eligibility criteria, the veteran was not attending school full-time until
                        November 5, 2012. The RPO inappropriately paid the veteran a little
                        over $1,800 in VRAP benefits for the period of September 26 through
                        November 4, 2012, due to the school inaccurately reporting the
                        veteran’s enrollment status.

                    VBA should reinforce to schools participating in VRAP they need to
                    accurately report credit hours with specific class term dates in the VA-ONCE
                    system.

Veteran Self-       We estimated over 1,800 of the 2,700 veterans inaccurately certified their
Certification       status as full-time students and received inappropriate monthly benefit
                    payments. VBA notifies veterans on their certificate of eligibility that they
                    should promptly notify their school officials and VA if there is any change in
                    their enrollment status. The certificate also explains that VA cannot pay
                    them for courses they do not attend or courses from which they withdraw.

                    Once enrolled, veterans are required to certify their attendance every month
                    to receive VRAP payments, either by the Web Automated Verification of
                    Enrollment (WAVE) system or by telephone using the Interactive Voice
                    Response (IVR) system. When veterans log into the WAVE system to verify
                    enrollment, the system displays their current enrollment information.
                    Veterans must certify the enrollment information is correct, and the
                    confirmation page states there is a penalty for willful false reports. When

VA Office of Inspector General                                                                       4
                                                                               Audit of VBA’s VRAP


                    veterans call into the IVR system, no such warning is provided. After
                    answering a series of questions, the IVR system locates the veteran’s record
                    by VA claim number and zip code. It then compares the current date with
                    the date the veteran was last paid. If the veteran is eligible for the monthly
                    benefit, the IVR system automatically informs the veteran they will receive
                    payment for that period.

                    We identified 17 veterans who certified their status as full-time students.
                    However, upon a review of their records, we found they were not attending
                    training or they had reduced their training to less than full-time or completely
                    withdrew from training during the term. The following two examples
                    illustrate instances of veterans inaccurately certifying their full-time
                    attendance.

Example 4               One veteran enrolled in a 3-week truck driver training program for the
                        term October 15 to November 9, 2012. However, the school official
                        incorrectly reported the training ended November 9, 2015. While
                        training ended November 9, 2012, the veteran continued to certify his
                        enrollment each month by both WAVE and IVR. The veteran received
                        payments through January 2013 when RPO staff stopped his award
                        based on our inquiry. The veteran was overpaid about $4,223 and
                        could have received additional unsupported payments totaling
                        approximately $13,250 had OIG not identified this error, or had it not
                        been caught by VA in a subsequent compliance survey visit.
Example 5               A veteran’s school transcripts showed the veteran received “F”
                        grades for 12-credit hours during a 2012 class term. Class instructor
                        records showed that the veteran had never attended a 3-credit hour
                        training course. While this resulted in the veteran not meeting
                        full-time student requirements, the veteran continued to certify
                        full-time student status. The veteran was overpaid approximately
                        $5,600 for the school term.

                    If schools reported timely and accurately that a veteran was no longer
                    attending training or was not attending full-time, VBA would be able to
                    identify veterans who inaccurately certify their status as full-time students.
                    To further minimize payment errors, VBA should include language on the
                    IVR scripts to warn veterans of the potential penalty for certifying false
                    enrollment information. We provided VBA Education Service management
                    and the OIG Office of Investigations with a list of veterans who inaccurately
                    certified their enrollment.

Inappropriate       We identified one school that VBA should not have approved to provide
Approval of         training for any GI Bill benefits, including VRAP. According to VBA, an
School
                    Education Liaison Representative inappropriately approved this technical
                    school as an authorized educational institution without obtaining the required
                    documentation. Schools are required to submit certain information with their

VA Office of Inspector General                                                                    5
                                                                               Audit of VBA’s VRAP


                    application for approval. This includes school policies and regulations
                    detailing veteran academic standards and attendance policies.

                    Only 1 of the 23 errors we identified from our sample involved a veteran
                    who was enrolled at this school. However, we conducted a site visit to this
                    school, and school attendance records indicated an additional 55 veterans
                    were enrolled and receiving VRAP benefits. We obtained hand-written
                    attendance records for the 56 veterans, which showed the following.

                    	 Forty veterans had attended classes, but only 28 of these veterans
                       attended at least 50 percent of the classes.
                    	 Sixteen veterans had no record of any attendance.

                    Additionally, we conducted an unannounced site visit to a scheduled class at
                    this school. According to the school’s attendance records, 27 veterans were
                    enrolled in this class. After 45 minutes from the official class start time, we
                    observed only one individual sitting in the classroom with no apparent
                    instruction occurring.

                    We recommended VBA officials consider reviewing the school’s approval
                    for VRAP benefits. VBA agreed and immediately scheduled a review of this
                    school. Following its review, VBA informed us it withdrew approval for the
                    school to provide training to any new veteran enrollees as of April 25, 2013.
                    In addition, VBA:

                    	 Reviewed 26 additional for-profit non-college degree-approved schools
                       or training facilities approved by this Education Liaison Representative.
                    	 Withdrew approval for 14 of the 26 non-college degree schools to
                       participate in VRAP and suspended participation of 8 others until the
                       schools provided additional documentation. Only 9 of the 14 schools
                       whose approval was withdrawn or suspended had veterans enrolled in
                       their program.

                    VBA is allowing currently enrolled veterans at the nine schools that are no
                    longer allowed to participate in VRAP to complete their training program.
                    However, VBA should implement a plan to monitor these veterans to ensure
                    they meet VRAP full-time attendance requirements and are making positive
                    progress towards program completion.

Inappropriate       We estimated VBA paid approximately $5 million to $19 million with a
Benefit             midpoint estimate of $12 million to just over 2,300 veterans who did not
Payments
                    meet VRAP full-time attendance requirements.

Conclusion          VBA should make sure participating schools comply with program
                    requirements that veterans attend training and make satisfactory progress
                    while receiving VRAP payments.          Without increased oversight and


VA Office of Inspector General                                                                   6
                                                                              Audit of VBA’s VRAP


                    additional controls, VBA risks making additional payments to veterans who
                    do not meet full-time attendance requirements. We developed our
                    recommendations based on VRAP’s termination date of March 31, 2014. If
                    Congress extends the program, VBA needs to consider implementing
                    stronger controls to ensure the long-term integrity of the program.

                    Recommendations
                    1.	 We recommended the Under Secretary for Benefits reinforce to schools
                        participating in the Veterans Retraining Assistance Program they must
                        monitor VA students’ attendance and grades for satisfactory academic
                        progress.
                    2.	 We recommended the Under Secretary for Benefits reinforce to schools
                        participating in the Veterans Retraining Assistance Program they are
                        required to report VA students’ changes in enrollment to VBA within
                        30 days.
                    3.	 We recommended the Under Secretary for Benefits revise the certifying
                        official handbook to state a veteran’s signed statement should not be used
                        as the only means of verifying attendance.
                    4.	 We recommended the Under Secretary for Benefits reinforce to schools
                        participating in the Veterans Retraining Assistance Program they need to
                        accurately report credit hours and class terms in the VA ONline
                        Certification of Enrollment system.
                    5.	 We recommended the Under Secretary for Benefits include language on
                        the Interactive Voice Response scripts to warn veterans of the potential
                        penalty for certifying false enrollment information.
                    6.	 We recommended the Under Secretary for Benefits implement a plan to
                        monitor veterans currently enrolled at the schools that had their approval
                        withdrawn or suspended to ensure they meet Veterans Retraining
                        Assistance Program full-time attendance requirements and are making
                        positive progress towards program completion.

Management          The Under Secretary for Benefits concurred with our recommendations and
Comments            agreed that VBA could improve its oversight of VRAP. The Under
and OIG
Response
                    Secretary stated VBA began accepting applications for VRAP within
                    6 months of the law being enacted and has continuously worked to improve
                    the administration of the program and educate schools and students on
                    program requirements.

                    The Under Secretary’s comments and action plans were responsive to the
                    intent of our recommendations. We will monitor implementation of these
                    actions and will close the recommendations when we receive sufficient
                    evidence demonstrating VBA’s progress in addressing the issues identified.
                    Appendix E contains the full text of the Under Secretary’s comments.


VA Office of Inspector General                                                                  7
                                                                                 Audit of VBA’s VRAP


Appendix A          Background

The GI Bill of      The Servicemen’s Readjustment Act of 1944, commonly known as the
Rights              GI Bill of Rights, was established to help veterans assimilate into civilian
                    life. Education benefits under what became known as the Montgomery
                    GI Bill–Active Duty (Chapter 30 of Title 38, United States Code) is limited
                    to 10 years following a service member’s last discharge from active duty.
                    On November 21, 2011, Congress passed the Veterans Opportunity to Work
                    to Hire Heroes Act, which provided an opportunity for unemployed veterans
                    not eligible for GI Bill education benefits to gain new skills through a
                    temporary expansion of eligibility for education and training benefits.

Veterans            The Veterans Opportunity to Work to Hire Heroes Act authorized VRAP.
Retraining          The program offers training assistance to unemployed veterans who are not
Assistance
Program
                    eligible for any other VA education benefits program. Congress allowed for
                    up to 45,000 participants from July 1, 2012, through September 30, 2012,
                    and 54,000 participants from October 1, 2012, through March 31, 2014. To
                    participate in VRAP, veterans must:

                    	 Be at least 35 but no more than 60 years of age
                    	 Have an other than dishonorable discharge
                    	 Be unemployed and have no eligibility to any other VA education
                       benefits
                    	 Not be in receipt of VA compensation due to unemployability
                    	 Not be enrolled in a Federal or State job training program

                    When an application is received and all the above criteria are met, VBA
                    issues the veteran a certificate of eligibility and notifies the veteran he or she
                    is entitled to benefits that must be used before April 1, 2014. Once eligible,
                    it is the veteran’s responsibility to enroll in an approved full-time training
                    program and pay the program costs.

                    Once enrolled, VA pays a standard monthly stipend that is equal to the
                    monthly full-time payment rate under the Montgomery GI Bill–Active Duty
                    program. The stipend does not change based on the cost of the training
                    program or the veteran’s circumstances, such as number of dependents. The
                    FY 2012 VRAP monthly stipend rate was $1,473 a month. The stipend
                    increased to $1,564 a month for FY 2013.




VA Office of Inspector General                                                                      8
                                                                           Audit of VBA’s VRAP


Appendix B          Scope and Methodology

Scope               We conducted our audit work from September 2012 through August 2013.
                    The audit focused on all veterans’ applications for VRAP received between
                    May 15, 2012 (the first date on which applications were accepted), and
                    November 27, 2012. During this period, VBA reported it received almost
                    79,000 applications for VRAP, approved about 65,000 applications, and
                    denied benefits to over 5,000 veterans who were not eligible for the
                    program. VBA paid over $48 million to approximately 18,500 veterans
                    enrolled in training as of November 27, 2012.

                    The number of veterans trained or in training has increased by over
                    300 percent since November 27, 2012. As of July 15, 2013, VBA updated
                    its program information and reported it received approximately
                    128,500 applications for VRAP, approved about 112,000 applications, and
                    denied benefits to about 10,000 veterans. As of July 2013, VBA reported
                    paying a total of about $367 million to approximately 57,000 veterans who
                    enrolled in training.

Methodology         To address our audit objective, we:

                    	 Interviewed VBA Education Service management and staff at
                       VA Central Office, Washington, DC; and at the four RPOs in Atlanta,
                       GA; Buffalo, NY; Muskogee, OK; and St. Louis, MO.
                    	 Analyzed a sample of VRAP applications to determine the timeliness of
                       processing and samples of completed decisions to determine the accuracy
                       of eligibility decisions and of payments.
                    	 Requested officials complete a survey showing each veteran’s current
                       status and provide the veteran’s school transcript at 142 schools where
                       154 veterans were in training.
                    	 Reviewed academic transcripts for veterans who received VRAP benefits
                       to ensure they were enrolled full-time. Where transcripts showed
                       veterans withdrew from their classes or received failing grades, we
                       contacted the school officials and confirmed certain veterans’
                       information, such as when they stopped attending class.
                    	 Conducted site visits to four schools to identify school policies and
                       procedures for veteran/student enrollment, attendance requirements,
                       monitoring, and reporting.
                    	 Reviewed for potential program fraud and provided VBA Education
                       Service management and the OIG Office of Investigations with a list of
                       veterans who inaccurately certified their enrollment.




VA Office of Inspector General                                                              9
                                                                               Audit of VBA’s VRAP


Criteria            To evaluate decisions, we applied the same criteria RPOs are required to
                    follow when determining VRAP eligibility. This included Education Service
                    VRAP Procedural Advisories and VBA Manual M22-4.

Data Reliability    To answer the audit’s objective, we relied on computer-processed data
                    contained in the VA-ONCE system, the Image Management System,
                    SHARE, and Modern Award Processing-Development applications. The
                    VA-ONCE system is a completely Internet-based application developed by
                    schools and VA representatives as an enhanced means for submitting
                    enrollment information. The Image Management System is an image-based
                    application that contains workflow information to support the processing of
                    education benefits. SHARE is a computer application used to establish and
                    manage benefits information. Modern Award Processing-Development is an
                    application to help perform claims development and identify evidence that
                    has and has not been received.

                    We assessed the reliability of this data by reviewing information in VBA’s
                    electronic records and comparing this information with the system data
                    provided to us. We also conducted sufficient tests of the data and discussed
                    the data with program management. Additional data reliability tests included
                    steps to identify any missing data in key fields, calculation errors, and data
                    outside of our period of review. Based on these tests and assessments, we
                    concluded the data were sufficiently reliable for us to use to meet the audit’s
                    objective.

Government          Our assessment of internal controls focused on those controls related to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                  10
                                                                                     Audit of VBA’s VRAP


Appendix C          Statistical Sampling Methodology

Population          VBA’s Daily VRAP Report, dated November 28, 2012, showed
                    78,864 individual applicants as of November 27, 2012.                  The
                    78,864 applications consisted of approved applications, not deemed eligible
                    (disallowed) applications, and applications not yet decided (pending).

                    Table 2 identifies the total number of VRAP applications by status and the
                    number of sample applications we reviewed.

Table 2
                                             Sample Size by VRAP Status
                                 VRAP Status                    Sample Size            Population
                    Disallowed                                        160                   5,385
                    Approved/ not enrolled                            166                  46,691
                    Approved and trained or in training               154                  18,503
                    Pending                                           120                   8,285
                        Total                                         600                  78,864
                    Source: OIG statistical samples selected based on population shown on
                    VBA’s Daily VRAP Report, November 28, 2012
Sampling            To answer our audit objective, we selected four samples. We stratified each
Design              population by RPO and selected a statistical simple random sample. All
                    RPOs and veterans had a chance of being selected, which allowed making
                    projections over the whole population, dollar amount, and RPOs. We
                    analyzed our four samples to determine the following results.

                    	 We sampled 160 of the 5,385 disallowed applications as of
                       November 27, 2012, and did not identify any reportable disallowance
                       decisions.
                    	 We sampled 166 of the 46,691 veterans who had received a certificate of
                       eligibility but had not yet enrolled in training, as of November 27, 2012,
                       and did not identify any reportable approval decisions.
                    	 We stratified the 18,503 veterans who were trained or in training, as of
                       November 27, 2012, into groups based on the 4 RPOs and dollar amounts
                       by payment levels. The sample included 154 approved applicants who
                       had enrolled in training. Reportable issues are highlighted in this report.


                    
                      VBA did not maintain a list of pending applications. However, VBA’s Daily VRAP
                    Report, dated November 28, 2012, showed 78,864 applications had been received. By
                    subtracting 65,194 approved and 5,385 denied applications, 8,285 applications were left
                    pending.

VA Office of Inspector General                                                                          11
                                                                                Audit of VBA’s VRAP


                         We sampled 120 applications that were pending as of May 16, 2013. We
                          found that the 120 pending applications had been reviewed or were
                          primarily waiting for character of service determinations.

Weights              We calculated estimates in this report using weighted sample data. Sampling
                     weights are computed by taking the product of the inverse of the
                     probabilities of selection at each stage of sampling.

Projections          We used a 90 percent confidence interval and sample size based on dollars
and Margins of       and RPO to compute expected margins of error for the sample. The margins
Error
                     of error and confidence intervals are indicators of the precision of the
                     estimates. If we repeated this audit with multiple samples, the confidence
                     intervals would differ for each sample but would include the true population
                     value 90 percent of the time.

                     We used the midpoint of the 90 percent confidence interval for each
                     projection.   For the 18,503 veterans trained or in training as of
                     November 27, 2012, we projected that 2,744 (15 percent) did not meet
                     VRAP full-time attendance program requirements, and VBA sent
                     unsupported payments to 2,329 (13 percent) veterans.

                     Table 3 shows a summary of types of errors found. Table 4 provides a
                     summary of estimated benefit payment errors and total payment errors. In
                     Tables 3 and 4, unlike the projected values themselves, the margins of error
                     for each of the categories do not sum to the margin of error for the total.
                     Margins of error are calculated independently for each projected value.
                     Numbers are rounded for report presentation.

Table 3
                                         Summary of Types of Errors

                                                         90 Percent Confidence Interval    Error
             Type of Error       Projected   Margin of                                    Number
                                 Number       Error       Lower             Upper         (Sample
                                                          Limit             Limit         Size 154)

           School Officials
           Not Providing
                                 2,744          997           1,747           3,741           23
           Adequate
           Oversight
           Percentage             14.8          5.4             9.4            20.2


           Veterans
           Inaccurately          1,829          810           1,020           2,639           17
           Certifying

           Percentage              9.9          4.4             5.5            14.3

           Source: VA OIG statistical analysis of school official oversight issues based on
           sample results of veterans enrolled in training

VA Office of Inspector General                                                                     12
                                                                                   Audit of VBA’s VRAP



Table 4
                               Summary of Estimated Benefit Payments Errors

                                                            90 Percent Confidence Interval    Error
                                 Projected     Margin of                                     Number
             Type of Error
                                 Number         Error         Lower            Upper         (Sample Size
                                                                                                154)
                                                              Limit            Limit
             Total Errors          2,744          997            1,747           3,741            23

              Percentage            14.8           5.4           9.4              20.2


           Benefit Payments
                                   2,329          920            1,409           3,249            20
                Errors
              Percentage            12.6           5.0           7.6              17.6

           Total Payments in
                                 $12 million   $7 million     $5 million      $19 million
                 Error
           Source: VA OIG statistical analysis of benefit payments errors based on sample
           results of veterans enrolled in training




VA Office of Inspector General                                                                         13
                                                                            Audit of VBA’s VRAP


Appendix D            Potential Monetary Benefits in Accordance                         With
                      Inspector General Act Amendments



                                                                    Better Use    Questioned
      Recommendation             Explanation of Benefits
                                                                     of Funds       Costs


                                 Using statistical sampling, we
                                 identified the number of
                                 veterans who were not
                                 complying with VRAP
                                 requirements. We identified
                                 the amount VBA overpaid
              1–5 
                                                 $12 million        $0
                                 each veteran and projected
                                 that to our universe.
                                 Strengthened program
                                 controls will help ensure only
                                 eligible veterans receive
                                 VRAP benefits.

                                                            Total   $12 million        $0




VA Office of Inspector General                                                              14
                                                                                     Audit of VBA’s VRAP


Appendix E              Under Secretary for Benefits Comments


                  Department of
                  Veterans Affairs
                                                            Memorandum
          Date:      September 6, 2013


         From:       Under Secretary for Benefits (20)


          Subj:      OIG Draft Report—Audit of Veterans Retraining Assistance Program
                     [Project No. 2012-04524-R5-0218)—VAIQ 7387772

           To:       Assistant Inspector General for Audits and Evaluations (52)


                  1. 	 Attached is VBA’s response to the OIG’s draft report: Audit of Veterans
                       Retraining Assistance Program.

                  2. 	 Questions may be referred to Catherine Milano, Senior Program Analyst,
                       at 461-9216.




                      Attachment




VA Office of Inspector General                                                                       15
                                                                            Audit of VBA’s VRAP


                          Veterans Benefits Administration (VBA) 

                                Comments on OIG Draft Report 

                       Audit of Veterans Retraining Assistance Program 


VBA provides the following comments:

Within six months of the law being enacted, VA and the Department of Labor collaboratively
leveraged existing systems to begin accepting applications on May 15, 2012, to meet the
statutory program start date of July 1, 2012. VA developed an aggressive outreach campaign to
raise awareness about the Veterans Retraining Assistance Program (VRAP) for both students and
schools and has already acted upon interim recommendations from the Office of Inspector
General to help maximize program utilization. While we concur with the recommendations in
this report, we note that we have continuously worked to improve the administration of the
program and educate schools and students on program requirements.

The following comments are submitted in response to the recommendations in the OIG
draft report:

Recommendation 1: We recommend the Under Secretary for Benefits reinforce to schools
participating in the Veterans Retraining Assistance Program they must monitor VA
students’ attendance and grades for satisfactory academic progress.

VBA Response: Concur. Education Service will issue a memo reminding School Certifying
Officials that they are obligated to accurately monitor and report VA student attendance and
progress.

Target Completion Date: October 1, 2013

Recommendation 2: We recommend the Under Secretary for Benefits reinforce to schools
participating in the Veterans Retraining Assistance Program they are required to report
VA students’ changes in enrollment to VBA within 30 days.

VBA Response: Concur. Education Service will issue a memo reminding School Certifying
Officials that they are obligated to accurately and timely report changes in VA student
enrollment status.

Target Completion Date: October 1, 2013

Recommendation 3: We recommend the Under Secretary for Benefits revise the certifying
official handbook to state a veteran’s signed statement should not be used as the only
means of verifying attendance.

VBA Response: Concur. Education Service will revise the School Certifying Official
Handbook to clearly state that a Veteran’s signed statement should not be used as the only means
of verifying attendance.

Target Completion Date: October 1, 2013


VA Office of Inspector General                                                               16
                                                                            Audit of VBA’s VRAP


Recommendation 4: We recommend the Under Secretary for Benefits reinforce to schools
participating in the Veterans Retraining Assistance Program they need to accurately
report credit hours and class terms in the VA ONline Certification of Enrollment system.

VBA Response: Concur. Education Service will issue a memo to School Certifying Officials
reminding them of the correct method of reporting multiple overlapping terms in the VA ONline
Certification of Enrollment system.

Target Completion Date: October 1, 2013

Recommendation 5: We recommend the Under Secretary for Benefits include language on
the Interactive Voice Response scripts to warn veterans of the potential penalty for
certifying false enrollment information.

VBA Response: Concur. Education Service will work to have the appropriate changes made to
the Interactive Voice Response system.

Target Completion Date: December 1, 2013

Recommendation 6: We recommend the Under Secretary for Benefits implement a plan to
monitor veterans currently enrolled at the schools that had their approval withdrawn or
suspended to ensure they meet Veterans Retraining Assistance Program full-time
attendance requirements and are making positive progress towards program completion.

VBA Response: Concur. Education Service will direct the appropriate field personnel to
perform follow-up visits to all schools with VRAP participants that had their approval suspended
or withdrawn, to ensure the Veterans are meeting the full-time attendance requirements, thus
making positive progress towards program completion.

Target Completion Date: November 1, 2013




VA Office of Inspector General                                                               17
                                                                                        Audit of VBA’s VRAP


Appendix F          Executive Summary of Interim Report




                   Veterans Benefits Administration – Interim Report –
              Participation in the Veterans Retraining Assistance Program,
                          April 15, 2013, Report No. 12-04524-171
            During our ongoing national audit of the Veterans Retraining Assistance Program
            (VRAP), we determined that if Veterans Benefits Administration (VBA) officials
            continued using its current method of counting authorized participants, veterans’ use of
            VRAP would not achieve the levels authorized by Congress.

            On November 21, 2011, Congress passed the Veterans Opportunity to Work (VOW) to
            Hire Heroes Act, which authorized VRAP benefits for 45,000 participants during
            FY 2012 and 54,000 participants from October 1, 2012, through March 31, 2014. To
            ensure VBA did not exceed the authorized limit of 99,000 participants, Education Service
            Program officials decided to count approved applicants as participants. However, not all
            approved applicants were actually participating in the program. As of February 15, 2013,
            about 33,000 (33 percent) of the 99,000 authorized participants were enrolled in an
            approved training program and receiving program benefits. To ensure VBA maximizes
            veterans’ use of this time-sensitive program, we recommended VBA continue to accept
            applications until they have 99,000 veterans enrolled in an approved training program or
            until October 1, 2013, the last date a veteran may apply for program benefits. We also
            made three other recommendations related to ensuring veterans’ ability to take full
            advantage of VRAP.

            We are conducting our national audit of VRAP in accordance with generally accepted
            government auditing standards (GAGAS). For this interim report, we did not follow all
            of the reporting standards because of the seriousness of this issue. Reporting, as an
            interim advisory, helps VBA address the urgency needed to take proactive corrective
            actions. We believe that the tests we did perform provide sufficient evidence for our
            conclusion. Given the urgency associated with reporting this information, we did not
            follow all GAGAS requirements. The final report on our national audit of the VRAP,
            which will also include this interim report, will address all of the GAGAS requirements
            related to reporting.

            The Under Secretary for Benefits concurred with our recommendations, stating VBA was
            committed to maximizing the use of VRAP benefits and getting our nation’s unemployed
            veterans back to work in high-demand occupations. VBA management was responsive to
            our recommendations and made suitable action plans. We will follow up as required and
            continue with our ongoing national audit.



                                                     Assistant Inspector General
                                                     for Audits and Evaluations




VA Office of Inspector General                                                                          18
                                                                    Audit of VBA’s VRAP


Appendix G          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact        For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments    Larry Reinkemeyer, Director
                                         Robin Frazier
                                         Timothy Halpin
                                         Scott Harris
                                         Ken Myers
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                       19
                                                    Audit of Veterans Retraining Assistance Program


Appendix H          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  20
